                               Closeout for M97100037

    On October 21, 1997, a n NSF program manager1 informed OIG of a potential
allegation of misconduct in science. The program manager said he had heard t h a t
the subject2 had used his position and influence to prevent some scientists (his
former students) from submitting a proposal to NSF t h a t would compete with his
own. Unfortunately, the program manager could not remember the names of the
subject's former students or the individual who told him about the alleged
interference. OIG asked the program manager to try to locate the names of the
students in any of his notes or other correspondences he may have. .The program
manager was unable to find any of these names. Without additional information,
OIG cannot pursue this allegation.


   This inquiry is closed and no further action will be taken on this case.


cc: Legal, AIG-Oversight, IG




       (footnote redacted).
   2   (footnote redacted).


                                     Page 1of 1
